                                    SOCIAL SECURITY
MEMORANDUM
Date:   March 28, 2005                                                       Refer To:

To:     Peter D. Spencer
        Regional Commissioner
         San Francisco

From:   Inspector General

Subject: Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)



        The attached final report presents the results of our audit. Our objective was to
        determine whether the indirect costs claimed by the Arizona Disability Determination
        Services for Federal Fiscal Years 2001 and 2002 were allowable and properly allocated.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have
        your staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                 S
                                                 Patrick P. O’Carroll, Jr.

        Attachment

        cc:
        Lenore R. Carlson
        Jeff Hild
        Candace Skurnik
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     INDIRECT COSTS CLAIMED
    BY THE ARIZONA DISABILITY
     DETERMINATION SERVICES

    March 2005    A-09-04-14010




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                 Executive Summary
OBJECTIVE
Our objective was to determine whether the indirect costs claimed by the Arizona
Disability Determination Services (AZ-DDS) for Federal Fiscal Years (FY) 2001 and 2002
were allowable and properly allocated.

BACKGROUND
Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance and Supplemental Security Income programs are performed by Disability
Determination Services (DDS) in each State in accordance with Federal regulations.
Each DDS is responsible for determining claimants’ disabilities and ensuring adequate
evidence is available to support its determinations. SSA reimburses the DDS for
100 percent of allowable expenditures. The expenditures include both direct and
indirect costs.

RESULTS OF REVIEW

We found that indirect costs claimed for reimbursement under SSA’s disability programs
were generally acceptable for FYs 2001 and 2002. However, the Arizona Department
of Economic Security (DES) incorrectly charged some indirect costs to SSA’s programs.
This occurred because DES (1) charged the costs of activities that did not benefit SSA’s
programs to the departmental indirect cost pool, (2) improperly charged self-insurance
premiums and the related administrative costs to the departmental indirect cost pool,
and (3) did not allocate departmental and State-wide indirect costs to all programs that
benefited from these costs.

As a result, SSA reimbursed DES for $272,062 of unallowable indirect costs for
July 2000 through June 2003. In addition, if DES had revised its cost allocation
methodology, we estimate SSA could have realized about $122,000 in cost savings for
July 2002 through June 2003. Over a 5-year period, we estimate SSA could realize
about $610,000 in program savings.

RECOMMENDATIONS

We recommend that SSA instruct DES to refund $272,062 of unallowable departmental
indirect costs. We also recommend that SSA instruct DES to discontinue charging
self-insurance premiums that do not benefit SSA’s programs to the departmental
indirect cost pool. Finally, we recommend that SSA instruct DES to revise its cost
allocation methodology, train its employees, and determine the propriety of indirect
costs charged to the departmental indirect cost pool.


Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)   i
SSA COMMENTS
SSA generally concluded that our recommendations were reasonable. However, SSA
stated that it could not make a reasonableness determination concerning the amount of
unallowable indirect costs that DES should refund without reviewing DES’ comments
and OIG’s response to those comments. See Appendix C for the text of SSA’s
comments.

DES COMMENTS
DES generally agreed with our findings and recommendations but believes the
unallowable indirect costs may be less than the amounts we identified. However, DES
agreed to comply with SSA’s instructions regarding the amount of unallowable costs to
be repaid to its programs. See Appendix D for the text of DES’ comments.

For our recommendation concerning the $141,662 in unallowable indirect costs, DES
stated that $63,703 in indirect costs did provide some benefit to SSA’s programs.
Specifically, DES believes SSA’s programs benefited from the Office of Accounts
Receivable and Collections (OARC) through its Public Assistance and Administration
Revolving (PAAR) Fund, activities for the developmentally disabled and foster care
children, and Interim Assistance Reimbursement program. DES also believes SSA’s
programs benefited from the Deputy Director for the Division of Developmental
Disabilities (DDD); Division of Children, Youth, and Families (DCYF); and Division of
Aging and Community Services (DACS) through meetings involving department-wide
issues.

For our recommendation concerning the $130,400 in unallowable self-insurance
premiums, DES agreed that self-insurance premiums were incorrectly charged to the
departmental indirect cost pool. However, DES stated it has established a new
methodology to allocate self-insurance premiums beginning in State FY 2005. DES
estimated that, had it applied this methodology to the period covered by our audit, the
unallowable premiums would have been $22,649.

OIG RESPONSE
While it is ultimately SSA’s decision to determine the amount of unallowable indirect
costs that DES should refund, we continue to believe that the $272,062 in indirect costs
did not benefit SSA’s programs. Specifically, we estimate the annual SSA program
costs of the OARC activities for the PAAR Fund is only $154. The remaining activities
of the OARC only benefit DES clients and are not related to the adjudication of claims
by AZ-DDS. In addition, the activities of the Deputy Director for DDD, DCYF, and
DACS do not benefit AZ-DDS operations. Finally, we believe SSA should recover the
unallowable indirect costs for self-insurance premiums. We determined the amount of
unallowable premiums based on the methodology DES used during our audit period
and believe it is inappropriate for DES to retroactively apply a new methodology.


Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)   ii
                                                                    Table of Contents
                                                                                                             Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

Departmental Indirect Costs That Provided No Benefit to SSA...............................3

Self-Insurance Premiums Were Improperly Charged ..............................................5

Cost Allocation Methodology Should be Revised....................................................6

CONCLUSIONS AND RECOMMENDATIONS.......................................................8

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Social Security Administration Comments

APPENDIX D – Arizona Department of Economic Security Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)
                                                                              Introduction
OBJECTIVE
Our objective was to determine whether the indirect costs claimed by the Arizona
Disability Determination Services (AZ-DDS) for Federal Fiscal Years (FY) 2001 and
2002 were allowable and properly allocated.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under Title II of the
Social Security Act (Act). The DI program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. In 1972, Congress enacted
the Supplemental Security Income (SSI) program under Title XVI of the Act. The SSI
program provides benefits to financially needy individuals who are aged, blind, or
disabled.

The Social Security Administration (SSA) is responsible for implementing policies
for the development of disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by Disability Determination
Services (DDS) in each State in accordance with Federal regulations.1 In carrying
out its obligation, each DDS is responsible for determining claimants’ disabilities and
ensuring adequate evidence is available to support its determinations.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization.2 The expenditures include both direct and indirect costs.3 At
the end of each quarter of the FY, each DDS submits a Form SSA-4513, State
Agency Report of Obligations for SSA Disability Programs, to account for program
disbursements and unliquidated obligations.

AZ-DDS is a component of the Arizona Department of Economic Security (DES),
Division of Benefits and Medical Eligibility. As of June 30, 2003, DES reported total
expenditures of $38.7 million for FYs 2001 and 2002, including $20.3 million in
personnel costs, $11.0 million in medical costs, $4.9 million nonpersonnel costs,


1
    20 C.F.R. part 404, subpart Q (April 2004), and part 416, subpart J (April 2004).
2
    20 C.F.R. §§ 404.1626 and 416.1026.
3
  Direct costs can be identified specifically with a particular cost objective (Office of Management and
Budget [OMB] Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A, § E.1). Indirect costs arise from activities that are common to multiple programs but are
not readily assignable to these programs without effort disproportionate to the results achieved (OMB
Circular A-87, Attachment A, § F.1).


Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)                    1
and $2.5 million in indirect costs. The following chart provides an overview of the
organizational structure of DES.


                           Arizona Department of Economic Security

                                                      Director




                      Office of
                      Director




                                     Division of
       Division of   Division of
                                     Employee         Deputy                                          Deputy
       Business      Technology
                                      Services        Director                                        Director
      and Finance     Services
                                    and Support




                                                                     Division of                     Division of         Division of
                                     Division of     Division of                    Division of
                                                                     Aging and                      Benefits and       Employment and
                                   Developmental   Children, Youth                 Child Support
                                                                     Community                        Medical           Rehabilitation
                                    Disabilities    and Families                   Enforcement
                                                                      Services                        Eligibility         Services




                                                                                                                          Disability
                                                                                      Family
                                                                                                                        Determination
                                                                                    Assistance
                                                                                                                          Services
                                                                                   Administration
                                                                                                                        Administration


                                                                                                                    Arizona DDS Operations




Each month, DES distributes direct and indirect costs to all programs within the
department through its cost allocation process. DES uses various methods to
allocate these costs reasonably and equitably. DES’ procedures require that
components charge costs directly to the benefiting programs whenever possible.4
Indirect cost pools are used when activities benefit multiple programs or the entire
department.

The departmental indirect cost pool, referred to as the “Z” pool, is designed to
accumulate the costs of activities that benefit all programs within DES. These costs
are allocated to all programs based on the modified total direct costs (MTDC) of
each program. MTDC consists of the total direct costs for each program less the
expenditures for food, direct aid to organizations or clients, principal and interest
payments for capital leases, and capital outlays. Each program receives an allocation
based on the percentage of its MTDC to the department’s total MTDC.

The State-wide indirect cost pool is used to distribute DES’ share of expenditures that
benefit all departments within the State. These costs are also allocated to all programs
based on the MTDC of each program.


4
    DES, Cost Allocation Plan, as amended, dated July 1, 2003.


Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)                                                      2
                                                      Results of Review
We found that indirect costs claimed for reimbursement under SSA’s disability programs
were generally acceptable for FYs 2001 and 2002. However, DES incorrectly charged
some indirect costs to SSA’s programs. This occurred because DES (1) charged the
costs of activities that did not benefit SSA’s programs to the departmental indirect cost
pool, (2) improperly charged self-insurance premiums and the related administrative
costs to the departmental indirect cost pool, and (3) did not allocate departmental and
State-wide indirect costs to all programs that benefited from these costs.

As a result, SSA reimbursed DES for $272,062 of unallowable costs for July 2000
through June 2003. In addition, if DES had revised its cost allocation methodology, we
estimate SSA could have realized about $122,000 in cost savings for July 2002 through
June 2003. Over a 5-year period, we estimate SSA could realize about $610,000 in
program savings.

DEPARTMENTAL INDIRECT COSTS THAT PROVIDED NO BENEFIT
TO SSA
DES incorrectly charged SSA for departmental indirect costs that did not benefit SSA’s
programs. These costs were charged to the departmental indirect cost pool by
components within the Division of Employee Services and Support, Division of Business
and Finance, and Deputy Director for the Division of Developmental Disabilities (DDD),
Division of Children, Youth, and Families (DCYF), and Division of Aging and Community
Services (DACS). This occurred, in part, because DES employees were not fully aware
of the proper methods for charging expenditures to the departmental indirect cost pool.
As a result, SSA reimbursed DES for $141,662 in unallowable costs for July 2000
through June 2003. The following table summarizes the unallowable costs that were
allocated to SSA’s programs.




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)   3
                 Unallowable Costs Allocated to SSA’s Programs
                    Through Departmental Indirect Cost Pool
                           DES Component                                Unallowable Costs

     Division of Employee Services and Support
        Appellate Services                                                    $17,278
        Special Investigations                                                 60,681

     Division of Business and Finance
        Accounts Receivable and Collections                                    38,314

     Deputy Director for DDD, DCYF, and DACS                                   25,389

     Total                                                                   $141,662


Federal cost standards state that expenditures may be allocated to a particular program
if the goods or services are charged in accordance with the relative benefits received.5
According to DES’ Cost Allocation Plan, the departmental indirect cost pool is designed
to accumulate only those costs of activities that benefit all programs within DES.
Therefore, the costs of any activities that DES charges to the departmental indirect
cost pool should provide benefit to all programs, including SSA’s programs.

We concluded that DES did not comply with Federal cost standards or its cost allocation
plan since these components did not perform activities that benefited SSA’s programs.
For example, the Appellate Services Administration is responsible for resolving disputed
issues resulting from department actions. Hearings are held for disputes involving
most programs within the department except for SSA’s programs. However, the
Appellate Services Administration charged the departmental indirect cost pool for
such expenditures as management costs, sick and annual leave, and training costs.
SSA’s programs did not benefit from these expenditures. Therefore, the Appellate
Services Administration should not have charged expenditures to the departmental
indirect cost pool.

To prevent future occurrences of similar problems, DES should charge costs to the
benefiting programs rather than the departmental indirect cost pool. DES should also
determine the propriety of indirect costs charged to the departmental indirect cost pool
by other components and refund any unallowable costs to SSA. In addition, DES
should train its employees in correctly charging departmental indirect costs.




5
    OMB Circular A-87, Attachment A, C.3.a.


Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)     4
SELF-INSURANCE PREMIUMS WERE IMPROPERLY CHARGED
DES improperly charged self-insurance premiums and the related administrative costs
to the departmental indirect cost pool. This occurred because DES did not identify the
applicable divisions that incurred losses for some claims. In addition, DES incorrectly
determined that all supplemental insurance costs, medical malpractice insurance costs,
and administrative costs for the self-insurance program should be charged to the
departmental indirect cost pool. As a result, SSA reimbursed DES for $130,400 of
unallowable indirect costs for July 2000 through June 2003.

Federal cost standards state that expenditures may be allocated to a particular program
if the goods or services are charged in accordance with the relative benefits received.6
According to DES’ Cost Allocation Plan, the departmental indirect cost pool is designed
to accumulate only those costs of activities that benefit all programs within DES.7 In
addition, indirect cost pools should be distributed to benefiting programs on bases that
will produce an equitable result.8

The State of Arizona established a self-insurance program to insure its agencies against
property and liability losses. In conjunction with each State department, the Arizona
Department of Administration (ADOA) provides overall management for the program.
Each State department is billed annually for its share of the self-insurance premium.
The premium consists of costs for primary insurance9 coverage, supplemental
insurance, medical malpractice, and administrative costs for program management.
DES pays ADOA the premium at the beginning of each year and reimburses itself
monthly by charging each division for its share of the premium. The amount charged to
each division is calculated separately for (1) primary insurance and (2) supplemental
insurance, medical malpractice, and administrative costs.

Primary Insurance Costs

The DES departmental indirect cost pool should be charged only the costs of
self-insurance premiums that benefit all programs within DES. DES charges the
primary insurance portion of the self-insurance premium to each division based on the
division’s actual losses over a 5-year period. Of this, only 1.2 percent of the premium
should have been charged to the departmental indirect cost pool (for losses that were
attributed to divisions that benefited all programs in DES).




6
    See id.
7
    DES, Cost Allocation Plan, as amended, dated July 1, 2003.
8
    OMB Circular A-87, Attachment A, F.1.
9
  Primary insurance includes auto liability and physical damage, general liability, environmental property,
and buildings and contents.


Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)                   5
We found that DES did not identify the divisions that incurred losses for approximately
$7 million. The premium associated with these losses was about $1.3 million. Since
DES did not identify the divisions that incurred these losses, it charged the entire
$1.3 million to the departmental indirect cost pool. We estimate that DES improperly
charged $1.28 million10 of this premium to the departmental indirect cost pool. As a
result, DES allocated $35,300 of unallowable indirect costs to SSA’s programs.

We reviewed a random sample of 50 of the 343 unidentified claims filed for July 1998
through June 2001 to determine whether we could identify the DES divisions that
incurred the losses. We were able to identify the divisions for 47 of the 50 claims. DES
and ADOA did not provide us sufficient data to identify the divisions for the remaining
three claims. In the future, DES should identify the divisions that incurred losses for all
claims and ensure the self-insurance premium is properly allocated to these divisions.

Supplemental Insurance, Medical Malpractice, and Administrative Costs

DES charged the supplemental insurance, medical malpractice and administrative cost
portion of the premium entirely to the departmental indirect cost pool. This resulted in
an inequitable distribution because the departmental indirect cost pool base does not
accurately measure the benefits received from the insurance premiums. We believe
this amount should have been charged to benefiting programs based on actual losses
incurred. Effective July 2003, DES used this method to distribute the supplemental
insurance and administrative costs. However, we found that, for July 2000 through
June 2003, DES improperly charged $3,470,900 to the departmental indirect cost pool.
This resulted in $95,100 of unallowable costs to SSA’s programs.

In July 2003, ADOA revised its procedures for billing self-insurance premiums. ADOA
includes the supplemental insurance and administrative cost portions of the premium
within the various lines of insurance provided by the State. We believe this revision
corrected some of the deficiencies noted during our audit because the premium is
charged to benefiting programs based on actual losses incurred. However, DES still
charges the medical malpractice insurance portion of the premium to the departmental
indirect cost pool. Therefore, DES should determine the programs that benefit from
medical malpractice insurance and allocate the premium accordingly.

COST ALLOCATION METHODOLOGY SHOULD BE REVISED
DES did not allocate departmental and State-wide indirect costs to some expenditures
within DDD. This occurred because DES used a cost allocation methodology that did
not provide for an equitable distribution of indirect costs. Specifically, DES excluded
five cost pools within DDD from cost allocation even though these cost pools benefited
from expenditures in the departmental and State-wide indirect cost pools. If DES had
revised its cost allocation methodology to include these expenditures, we estimate SSA

10
   We redistributed the $1,308,800 premium for the unidentified losses to each division based on the
86 percent ($44 million) of identified losses. This calculation showed that DES improperly charged
$1,288,600 to the departmental indirect cost pool.


Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)                6
could have realized about $122,000 in cost savings for July 2002 through June 2003.
However, since the methodology was included in the approved cost allocation plan, we
are not recommending a refund for this amount.

Federal cost standards require that all programs that benefit from expenditures in an
indirect cost pool receive an appropriate allocation of indirect costs.11 HHS’ Division of
Cost Allocation reviews and approves DES’ Cost Allocation Plan.

DDD used the five cost pools to charge expenditures for operating various centers
that provide training and care for its clients throughout Arizona. DES did not allocate
departmental and State-wide indirect costs to these cost pools because they were
classified as direct aid to clients. Expenditures for direct aid to clients are excluded from
cost allocation because these expenditures generally do not benefit from indirect costs.
However, we found that about 84 percent of the expenditures in the five cost pools
were personnel costs for DES employees. These costs benefited from expenditures in
the departmental and State-wide indirect cost pools for such services as accounting,
personnel, financial services, facilities management, and procurement. Therefore, DDD
should have received an allocation of departmental and State-wide indirect costs based
on its expenditures in the five cost pools.

Excluding the DDD expenditures from cost allocation resulted in an inequitable
distribution of indirect costs because the total MTDC for all programs did not reflect
these costs. Many Federal programs, including SSA’s programs, would pay a smaller
share of indirect costs if the five DDD cost pools were included in the total MTDC
for all programs. If DES revised its cost allocation methodology to include these
expenditures, we estimate SSA could have realized about $122,000 in cost savings for
July 2002 through June 2003. Over a 5-year period, we estimate SSA could realize
about $610,000 in program savings. Therefore, we encourage DES to revise its
cost allocation plan to require all programs that benefit from expenditures in the
departmental and State-wide indirect cost pools to receive an appropriate allocation
of indirect costs.




11
     OMB Circular A-87, Attachment A, C.3.b.


Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)      7
                                                     Conclusions and
                                                    Recommendations
We found that indirect costs claimed for reimbursement under SSA’s disability programs
were generally acceptable for FYs 2001 and 2002. However, DES incorrectly charged
some indirect costs to SSA’s programs. This occurred because DES (1) charged the
costs of activities that did not benefit SSA’s programs to the departmental indirect cost
pool, (2) improperly charged self-insurance premiums and the related administrative
costs to the departmental indirect cost pool, and (3) did not allocate departmental and
State-wide indirect costs to all programs that benefited from these costs.

As a result, SSA reimbursed DES for $272,062 of unallowable costs for July 2000
through June 2003. In addition, if DES had revised its cost allocation methodology, we
estimate SSA could have realized about $122,000 in cost savings for July 2002 through
June 2003. Over a 5-year period, we estimate SSA could realize about $610,000 in
program savings.

We recommend that SSA:

1. Instruct DES to refund $141,662 of unallowable departmental indirect costs for
   July 2000 through June 2003.

2. Instruct DES to discontinue charging expenditures for activities that do not benefit
   SSA’s programs to the departmental indirect cost pool.

3. Instruct DES to determine the propriety of indirect costs charged to the
   departmental indirect cost pool by other components and refund any unallowable
   costs to SSA.

4. Instruct DES to train its employees in properly charging departmental indirect costs.

5. Instruct DES to refund $130,400 of unallowable self-insurance premiums for
   July 2000 through June 2003.

6. Instruct DES to discontinue charging self-insurance premiums that do not benefit
   SSA’s programs to the departmental indirect cost pool.

7. Ensure DES revises its cost allocation plan to require all programs that benefit from
   expenditures in the departmental and State-wide indirect cost pools receive an
   appropriate allocation of indirect costs.




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)   8
SSA COMMENTS
SSA concluded that Recommendations 2, 4, 6, and 7 were reasonable. However, SSA
stated it could not make the same determination for Recommendations 1, 3, and 5
without reviewing DES’ comments and OIG’s response to those comments. See
Appendix C for the text of SSA’s comments.

DES COMMENTS
DES generally agreed with our findings and recommendations but believes the
unallowable indirect costs may be less than the amounts we identified. However, DES
agreed to comply with SSA’s instructions regarding the amount of unallowable indirect
costs to be repaid to its programs. See Appendix D for the text of DES’ comments.

For Recommendation 1, DES agreed that $77,959 in indirect costs from the Division of
Employee Services and Support did not benefit SSA’s programs. However, DES stated
the remaining $63,703 in indirect costs did provide some benefit to SSA’s programs.
Specifically, DES believed that SSA’s programs benefited from the Office of Accounts
Receivable and Collections (OARC) through its Public Assistance and Administration
Revolving (PAAR) Fund, activities for the developmentally disabled and foster care
children, and Interim Assistance Reimbursement (IAR) program. DES also believes
SSA’s programs benefited from the Deputy Director for DDD, DCYF, and DACS through
meetings involving department-wide issues.

DES did not provide specific comments to address Recommendations 2, 3, and 4.
However, DES plans to implement changes to prevent further incorrect charges from
Appellate Services and Special Investigations.

For Recommendation 5, DES agreed that self-insurance premiums were incorrectly
charged to the departmental indirect cost pool, resulting in $130,400 in unallowable
indirect costs to SSA’s programs. However, DES stated it has established a new
methodology to allocate self-insurance premiums beginning in State FY 2005. DES
estimated that, had it applied this methodology to the period covered by our audit, the
unallowable premiums would have been $22,649.

In response to Recommendation 6, DES stated that, beginning in State FY 2005, it will
discontinue charging self-insurance premiums to the departmental indirect cost pool.
DES plans to allocate self-insurance premiums equitably.

For Recommendation 7, DES agreed to revise its cost allocation plan to ensure all
programs that benefit from the departmental and State-wide indirect cost pools receive
an appropriate allocation of indirect costs.




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)   9
OIG RESPONSE

While it is ultimately SSA’s decision to determine the amount of unallowable indirect
costs that DES should refund, we continue to believe that the $272,062 in indirect costs
did not benefit SSA’s programs.

For Recommendation 1, we believe the $141,662 in unallowable indirect costs
should be refunded to SSA. Although OARC activities for the PAAR Fund may benefit
all DES programs, we estimate the annual cost to SSA’s programs was only $154.
OARC activities for the developmentally disabled, foster care children, and IAR program
benefit DES clients and are not related to the adjudication of claims by AZ-DDS. In
addition, the activities of the Deputy Director for DDD, DCYF, and DACS do not benefit
AZ-DDS operations under the Division of Benefits and Medical Eligibility.

We encourage SSA to work with DES to implement Recommendations 2, 3, and 4—for
which DES did not provide specific written comments. We believe these
recommendations are necessary to (1) improve the accounting and reporting of
departmental indirect costs and (2) ensure the propriety of indirect costs charged to
SSA’s programs by other components.

For Recommendation 5, we believe SSA should recover the $130,400 in unallowable
indirect costs for self-insurance premiums. We determined the amount of unallowable
premiums based on the methodology DES used during our audit period. We believe it
is inappropriate for DES to retroactively apply a new methodology to determine the
self-insurance premiums that would have been charged to SSA’s programs had such
a methodology been in effect at that time.




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)   10
                                             Appendices




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)
                                                                            Appendix A

Acronyms
Act                       Social Security Act

ADOA                      Arizona Department of Administration

AZ-DDS                    Arizona Disability Determination Services

C.F.R.                    Code of Federal Regulations

DACS                      Division of Aging and Community Services

DCYF                      Division of Children, Youth, and Families

DDD                       Division of Developmental Disabilities

DDS                       Disability Determination Services

DES                       Department of Economic Security

DI                        Disability Insurance

Form SSA-4513             State Agency Report of Obligations for SSA Disability Programs

FY                        Fiscal Year

HHS                       Department of Health and Human Services

IAR                       Interim Assistance Reimbursement

MTDC                      Modified Total Direct Costs

OARC                      Office of Accounts Receivable and Collections

OIG                       Office of the Inspector General

OMB                       Office of Management and Budget

PAAR                      Public Assistance and Administration Revolving

SSA                       Social Security Administration

SSI                       Supplemental Security Income


Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)
                                                                            Appendix B

Scope and Methodology
We reviewed the indirect costs reported by the Arizona Disability Determination
Services (AZ-DDS) on its State Agency Report of Obligations for SSA Disability
Programs (Form SSA-4513) for Federal Fiscal Years (FY) 2001 and 2002. However,
two of our findings affected the costs claimed during the last quarter of FY 2000 and the
first three quarters of FY 2003. Therefore, we expanded the audit period to fully
develop these findings.

To accomplish our objective, we:

•   Reviewed Office of Management and Budget (OMB) Circular A-87, Code of Federal
    Regulations, the Social Security Administration’s (SSA) Program Operations Manual
    System, and Arizona Department of Economic Security’s (DES) Cost Allocation
    Plan.

•   Reviewed DES’ policies and procedures related to indirect costs.

•   Interviewed employees from the AZ-DDS, DES, Arizona Department of
    Administration, Arizona Auditor General’s Office, SSA regional office, and
    Department of Health and Human Services’ Division of Cost Allocation.

•   Reconciled the accounting records to the indirect costs reported by DES on its
    Form SSA-4513 for FYs 2001 and 2002.

•   Examined the allowability of indirect costs incurred and claimed by DES during
    FYs 2001 and 2002.

•   Selected a random sample of 50 unidentified self-insurance claims from July 1998 to
    June 2001 to identify the DES divisions that incurred the losses.

We determined the computer-processed data from the DES were sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives.

We performed audit work at AZ-DDS and DES in Phoenix, Arizona. We also
performed audit work at the SSA regional office in Richmond, California. Field work
was conducted between August 2003 and October 2004. We conducted our audit in
accordance with generally accepted government auditing standards.




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)
                                                                            Appendix C

Social Security Administration Comments




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)
                                    SOCIAL SECURITY
MEMORANDUM

Date:                                                                    Refer To:   S2D9G4


To:        Assistant Inspector General
           for Audit

From:      Assistant Regional Commissioner
           Management and Operations Support
           San Francisco

Subject:   Indirect Costs Claimed by the Arizona Disability Determination Services
           (A-09-04-14010)—REPLY

           Thank you for the opportunity to review the draft report of your audit of the indirect costs
           claimed by the Arizona Disability Determination Services. Per your request, we are providing
           an attachment with specific written comments for each of the seven recommendations
           contained in the draft report.

           If you have any questions regarding our comments, please call me. If staff have questions,
           they may call Diane Trewin in the Center for Disability at (510) 970-8295.




                                                  Patrick E. Sheehan

           Attachment




      Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)   C-1
                                                                                    Attachment

           Regional Office Comments on the Arizona DDS Draft Audit Report


     Recommendation 1: Instruct DES to refund $141,662 of unallowable
     departmental indirect costs for July 2000 through June 2003.

     Comment: We cannot make a reasonableness determination until we review the
     State response and the OIG rebuttal.

     Recommendation 2: Instruct DES to discontinue charging expenditures for
     activities that do not benefit SSA’s programs to the departmental indirect cost
     pool.

     Comment: We find this recommendation reasonable.

     Recommendation 3: Instruct DES to determine the propriety of indirect costs
     charged to the departmental indirect cost pool by other components and refund
     any unallowable costs to SSA.

     Comment: We agree that DES should determine the propriety of indirect costs
     charged to the departmental indirect cost pool by other components. We cannot
     make a reasonableness determination regarding refunds without reviewing the
     State response and OIG rebuttal.

     Recommendation 4: Instruct DES to train its employees in properly charging
     departmental indirect costs.

     Comment: We find this recommendation reasonable.

     Recommendation 5: Instruct DES to refund $130,400 of unallowable
     self-insurance premiums for July 2000 through June 2003.

     Comment: We cannot make a reasonableness determination without reviewing
     the State response and the OIG rebuttal.

     Recommendation 6: Instruct DES to discontinue charging self-insurance
     premiums that do not benefit SSA’s programs to the departmental indirect cost
     pool.

     Comment: We find this recommendation reasonable.

     Recommendation 7: Ensure DES revises its cost allocation plan to require all
     programs that benefit from expenditures in the departmental and State-wide
     indirect cost pools receive an appropriate allocation of indirect costs.

     Comment: We find this recommendation reasonable.


Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)    C-2
                                                                            Appendix D

Arizona Department of Economic Security
Comments




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)
                        ARIZONA DEPARTMENT OF ECONOMIC SECURITY
                             1717 W. Jefferson • P.O. Box 6123 • Phoenix, AZ 85005
Janet Napolitano                                                                              David A. Berns
Governor                                                                                            Director




    Steven L. Schaeffer
    Assistant Inspector General for Audit
    Social Security Administration, Office of the Inspector General
    6401 Security Boulevard
    Room 4L1 Operations Building
    Baltimore, MD 21235-6401

    REF: Indirect Costs Claimed by the Arizona Disability Determination Services
         Audit Report A-09-04-14010

    Dear Mr. Schaeffer:

    Enclosed are the Arizona Department of Economic Security's (Department) comments to the
    recommendations in your draft audit report, Indirect Costs Claimed by the Arizona Disability
    Determination Services (A-09-04-14010).

    The Department appreciates the opportunity to present its views relative to the validity of the
    facts and reasonableness of the recommendations.

    Sincerely,

            /s/

    David A. Berns

    Enclosure

    c. Don Proffit, Social Security Administration
       Nancy West, Program Administrator, Arizona Disability Determination Services
       Administration




    Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)           D-1
Introduction

The Department of Economic Security's (DES/department) Cost Allocation Plan (CAP) is
intended to provide an equitable monthly allocation of allowable costs to all programs
administered by DES. The DES CAP is monitored, reviewed and updated, as necessary. In
September 2001, the U.S. Department of Health and Human Services (HHS), Division of Cost
Allocation (DCA), conducted a conformance review of the department's CAP. As a result of that
review, DES' CAP was revised effective January 1, 2002, with subsequent approved
amendments dated October 1, 2002, July 1, 2003 and July 1, 2004. DES allocates costs to
federal programs in compliance with its approved CAP. DES' procedures require costs to be
charged to the benefiting programs whenever possible, with indirect cost pools used when
activities benefit multiple programs or the entire department.

As a result of the Office of the Inspector General's (OIG) review, the auditors concluded that
DES incorrectly charged some indirect costs to Social Security Administration's (SSA) programs
because DES:
•   charged the costs of activities that did not benefit SSA’s programs to the departmental
    indirect cost pool
•   improperly charged self-insurance premiums and the related administrative costs to the
    departmental indirect cost pool, and
•   did not allocate departmental and State-wide indirect costs to all programs that benefited
    from these costs.
The following are the department's comments to the OIG auditors' findings and
recommendations:

DEPARTMENTAL INDIRECT COSTS THAT PROVIDED NO BENEFIT TO SSA–OIG auditors
concluded that the following DES components that charged costs to the departmental indirect
cost pool did not perform activities that benefited SSA's programs.

    Divisions of Employee Services and Support
    Appellate Services                                                            $ 17,278
    Special Investigations                                                          60,681
    Division of Business and Finance
    Accounts Receivable and Collections                                              38,314
    Deputy Director for the Division of Developmental Disabilities
     (DDD), the Division of Children, Youth and Families (DCYF),
     and the Division of Aging and Community Services (DACS)                        25,389
    Total                                                                         $141,662
DES COMMENTS
Divisions of Employee Services and Support–Prior to January 1, 2002, administrative costs
for Appellate Services Administration (ASA) and the Office of Special Investigations (OSI) were
charged to the department's indirect cost pool. In response to the 2001 DCA conformance
review of the DES CAP, cost pools P172 and P178 were established to accumulate
administrative costs for ASA and OSI, respectively, to be allocated to the benefiting programs
based on direct personal service costs, as specified on page 24 of the CAP. The DES Cost
Allocation Plan was amended to reflect the addition of the two new cost pools and the change in
the allocation of ASA and OSI administrative costs, effective January 1, 2002.

Subsequent to January 1, 2002, some ASA and OSI administrative costs continued to be
incorrectly charged to the indirect cost pool, which resulted in a total of $17,375 in unallowable
costs reimbursed by SSA (calculated using the spreadsheets provided by the OIG auditors).

Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)       D-2
Although, prior to January 1, 2002, administrative costs for ASA and OSI were charged and
allocated in accordance with the DES CAP, as approved at that time, DES does concur that the
activities performed by ASA and OSI did not benefit SSA's programs. Consequently, DES will
comply with SSA's instructions regarding the amount to repay to its programs.

Division of Business and Finance–Although SSA does not benefit from the debt collection
function performed by the Office of Accounts Receivable (OARC), OARC provides the following
services that benefit all DES divisions and administrations–and specific services that directly
benefit SSA:

•   OARC administers the Public Assistance and Administration Revolving (PAAR) Fund. This
    fund is used 1) for minor and miscellaneous expenses any administration within DES may
    incur and 2) to ensure employees are paid timely, if for any reason an employee does not
    receive a payroll warrant. The Disability Determination Services Administration (DDSA), for
    example, has had employees who have received PAAR checks because they were not in
    the system in time to receive a system-generated payroll warrant.

•   OARC handles the billing for services to the developmentally disabled and administers the
    funds for foster children without parents through the Foster Care Benefit Trust Fund. Both
    of these tasks involve monitoring social security disability payments received by these
    clients (including foster children) and follow up with the caseworkers to ensure continued
    disability benefit eligibility if benefits lapse.

•   OARC also handles the Interim Assistance Reimbursement (IAR) program. Clients may
    apply for General Assistance (GA) and are approved if they meet the definition of "disabled"
    as outlined by the SSA. These clients are paid GA while they wait for an official disability
    determination by the SSA. When approved by SSA for disability benefits, the initial benefit
    check is sent to OARC for reimbursement of GA paid to the client while awaiting the SSA
    disability decision. Any denial notifications received by OARC from SSA are forwarded to
    Family Assistance Administration in the DES Division of Benefits and Medical Eligibility
    (DBME) for review of the client case(s).
The above-described tasks are handled by three full-time positions in OARC.

Deputy Director for DDD, DCYF, and DACS–The department's many programs are not free
standing; consequently, the Deputy Directors attend meetings that apply to and benefit
programs across all of the department's divisions. Because the services of each of the Deputy
Directors benefit programs across all divisions, the organizational structure of the deputies has
historically been dynamic–changing frequently in response to changes in management, as well
as to meet the changing needs of the department. Therefore, it is DES' policy that the Deputy
Directors charge the departmental indirect cost pool. Through the indirect cost pool, costs for
the Deputy Director of DDD, DCYF and DACS are allocated to other divisions' programs,
including DDSA, and costs for DBME's Deputy Director are allocated to the programs in DDD,
DCYF and DACS. Consequently, the $25,389 allocated to SSA's programs is not a net amount,
i.e., it is not net of the cost benefit realized by DDSA as a result of the allocation of costs for
DBME's Deputy Director to the many programs in DDD, DCYF and DACS.

The allocation of the Deputy Directors' costs to only the divisions that report directly to them
would require the creation of separate cost pools. The resulting percentage each program
would be charged would be somewhere between their divisional percentage and their indirect
cost pool percentage. The department does not believe that this would result in any meaningful
differences in the amount charged to programs for the activities of the deputy directors.



Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)        D-3
SELF-INSURANCE PREMIUMS WERE IMPROPERLY CHARGED–SSA auditors determined
that DES improperly charged self-insurance premiums and the related administrative costs to
the departmental indirect cost pool. This occurred because DES did not identify the applicable
divisions that incurred losses for some claims. In addition, DES incorrectly determined that all
supplemental insurance costs, medical malpractice insurance costs, and administrative costs for
the self-insurance program should be charged to the departmental indirect cost pool. As a
result, SSA reimbursed DES for $130,400 of unallowable indirect costs for July 2000 through
June 2003, as follows (see RECAP below):

                                            RECAP

                                        Amount Charged          Percent
                                         to the Indirect       Allocated      Total Charged to
              Description                  Cost Pool           to DDSA         SSA Programs
Primary Insurance (Self-insurance
portion of the Risk Management
amount billed)                              $1,288,600           2.74%             $35,300

Supplemental Insurance, Medical
Malpractice and Administrative Costs        $3,470,900           2.74%             $95,100

Total                                       $4,759,500                            $130,400

Primary Insurance Costs–DES charged the primary insurance portion of the self-insurance
premium to each division based on the division’s actual losses over a 5-year period. Of this,
only 1.2 percent of the premium should have been charged to the departmental indirect cost
pool (for losses that were attributed to divisions that benefited all programs in DES).

Supplemental Insurance, Medical Malpractice, and Administrative Costs–DES charged the
supplemental insurance, medical malpractice and administrative cost portion of the premium
entirely to the departmental indirect cost pool. This resulted in an inequitable distribution
because the departmental indirect cost pool base does not accurately measure the benefits
received from the insurance premiums. The OIG auditors believe this amount should have
been charged to benefiting programs based on actual losses incurred. Effective July 2003, DES
used this method to distribute the supplemental insurance and administrative costs. However,
the auditors found that, for July 2000 through June 2003, DES improperly charged
$3,470,900 to the departmental indirect cost pool. This resulted in $95,100 of unallowable costs
to SSA’s programs.

In July 2003, ADOA revised its procedures for billing self-insurance premiums to include the
supplemental insurance and administrative cost portions of the premium within the various lines
of insurance provided by the State. This revision corrected some of the deficiencies noted
during the audit because the premium is charged to benefiting programs based on actual losses
incurred. However, DES still charges the medical malpractice insurance portion of the premium
to the departmental indirect cost pool. Therefore, DES should determine the programs that
benefit from medical malpractice insurance and allocate the premium accordingly.

DES COMMENTS
The Arizona Department of Administration (ADOA) bills DES for its portion of Risk Management
charges. For the period July 2000 through June 2003, the Risk Management premium billed
was broken out by Self-Insurance–Auto Liability; Auto Physical Damage; General Liability;
Environmental Liability; Environmental Property; and Buildings and Contents and Supplemental


Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)      D-4
Insurance; Medical Malpractice and Administrative Costs. During this period, DES allocated the
self-insurance portion of the premium to each division based on actual losses over a five-year
period, while unidentified losses, supplemental insurance, medical malpractice and
administrative costs were allocated to programs through the indirect cost pool.

State fiscal year (FY) 2003 was the last year that ADOA broke out the Risk Management
premium charges into Self-Insurance, Risk Management Administration and Supplemental
Insurance. As the OIG auditors noted, effective July 2003, ADOA revised its procedures for
billing self-insurance premiums to include the supplemental insurance and administrative cost
portions of the premium within the various lines of insurance (Auto Liability; Auto Physical
Damage; General Liability; Medical Malpractice; Environmental Liability; Environmental
Property; and Buildings and Contents) provided by the State. ADOA has discussed its current
procedures to allocate Risk Management costs to State agencies with DES and has
recommended that State agencies follow a similar methodology to calculate the basis for cost
determination for each of the lines within the total premium when allocating costs to their
programs.

Beginning in FY 2005, DES will utilize the basis for cost determination recommended by ADOA
to allocate the various lines within the billed Risk Management premium to its programs. (See
Attachment A for a detailed description of the basis for costs determination for each of the Risk
Management premium line items.) Actual losses attributable to defined claims (i.e., identified
losses) will comprise one component of the basis for cost determination for each of the lines or
categories that make up the total premium billed (i.e., unidentified losses will not be used), and
none of the Risk Management premium will be charged to–or allocated to programs through–
the departmental indirect cost pool. DES has documented the step-by-step procedures that will
be used in FY 2005 to equitably allocate Risk Management charges to its programs.

To estimate the amount of the total Risk Management premium billed expected to be allocated
to DDSA beginning in FY 2005, DES used the revised methodology described above to
recalculate the allocation of the FY 2004 Risk Management premium billed by ADOA. The
calculations were performed for each of the individual lines of the premium as described in
Attachment A, with the results summarized in Attachment B to this document. The
procedures used to calculate the allocated amounts in Attachment B resulted in a total of
$35,917 in Risk Management costs that would have been allocated to DDSA (ORGN 3600) in
FY 2004 if the ADOA-recommended procedures had been used. The department would not
expect the allocation results to vary significantly from year to year.

DES agrees that for the period 2000 through 2003, costs attributable to losses that were listed
as "unidentified" in the 5-year loss report and all supplemental insurance costs, medical
malpractice insurance costs and administrative costs were incorrectly charged to the
departmental indirect cost pool. Effective FY 2005, none of the Risk Management premium will
be charged to the indirect cost pool, and all line items that comprise the total Risk Management
premium, including medical malpractice, will be allocated as described in Attachment A, with
only identified or defined losses to be used in the basis for cost determination calculations.

All programs within DES that occupy space, have equipment, employees, and employees who
drive vehicles benefit from the insurance coverage provided by Risk Management and
consequently should bear their fair share of the premium costs. As described in Attachment A,
the basis for cost determination for the medical malpractice Risk Management premium line
amount beginning in FY 2005 will be the professional personnel count percentage per
organization (orgn) plus the defined claims percent per orgn. Per ADOA's records, DES has
never had a medical malpractice claim and consequently no losses attributable to medical


Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)       D-5
malpractice; however, DES still has to pay the amount attributable to medical malpractice
included in the total Risk Management amount billed by ADOA. In FY 2005 and forward,
medical malpractice costs will be allocated to programs based on the program's professional
personnel count percentage plus defined claims, if any.

Attachment C to this document provides a summary of the actual allocation to DES programs
of the FY 2004 Risk Management premium billed by ADOA and the calculation of the total
amount of the FY 2004 Risk Management premium that was allocated to DDSA. Attachment D
provides a recap of DES' estimate of the total amount of Risk Management charges
overallocated to DDSA from July 2000 through June 2003, and from July 2000 through June
2004.

COST ALLOCATION METHODOLOGY SHOULD BE REVISED–DES did not allocate
departmental and State-wide indirect costs to some expenditures within DDD. Specifically, DES
excluded five cost pools within DDD from cost allocation even though these cost pools benefited
from expenditures in the departmental and State-wide indirect cost pools. OIG auditors found
that about 84 percent of the expenditures in the five cost pools were personnel costs for DES
employees. These costs benefited from expenditures in the departmental and State-wide
indirect cost pools for such services as accounting, personnel, financial services, facilities
management, and procurement. Excluding the DDD expenditures from cost allocation resulted
in an inequitable distribution of indirect costs because the total MTDC for all programs did not
reflect these costs. Therefore, DES is encouraged to revise its cost allocation plan to require all
programs that benefit from expenditures in the departmental and State-wide indirect cost pools
to receive an appropriate allocation of indirect costs.

DES COMMENTS
DES concurs with the auditors' finding. DES will prepare an amendment to its CAP to require
the expenditures in the five DDD costs pools identified in the audit finding that are currently
excluded from cost allocation to receive an appropriate allocation of indirect costs. The CAP
revision, along with a cost impact statement, will be prepared and forwarded to U.S. HHS, DCA
for approval.

RESPONSES TO RECOMMENDATIONS AND CORRECTIVE ACTIONS PLANNED

In response to the auditors' recommendation to SSA that DES be instructed to refund $141,662
of unallowable costs attributable to the activities of ASA, OSI, OARC and the Deputy Director for
DDD, DCYF, and DACS:

   •   DES concurs that the activities performed by ASA and OSI did not benefit SSA's
       programs;
   •   DES believes that SSA does benefit to the extent charged from activities performed by
       OARC; and
   •   DES believes that charging the deputy directors' costs to the departmental indirect cost
       pool is the most equitable way to charge DES programs and activities from a cost benefit
       as well as an operational perspective.
However, DES will respect SSA's decision regarding the auditors' recommendations and comply
with its instructions regarding corrective actions to be taken.

Corrective action planned to prevent further incorrect charges by ASA and OSI to the indirect
cost pool include:



Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)        D-6
•   The DES Accounts Payable Unit will review all payment vouchers, travel claim corrections,
    planned obligations, expenditure corrections, and any other transactions against ASA and
    OSI cost centers (1720s and 1780s) to ensure they are correctly coded to cost pools P172
    and P178;
•   DES Fleet Management, Division of Technology Services and Facilities Administration have
    been directed to correct coding in their respective processes and systems to discontinue the
    use of the indirect cost pool (Z Pool) reporting category against ASA and OSI cost centers;
•   DESS has requested and the Division of Business and Finance will change default P100
    codes in the ASA and OSI Position Control File to the appropriate pool codes; and
•   All ASA and OSI staff have been reminded not to code any timesheet, procurement or
    expense documents with a P100 reporting category.

In response to the auditors' recommendation to SSA that DES be instructed to refund $130,400
of unallowable self-insurance premiums for July 2000 through June 2003:

•   All programs within DES that occupy space, have equipment, employees, and employees
    who drive vehicles benefit from the insurance coverage provided by Risk Management and
    consequently should bear their fair share of the of the premium costs, including medical
    malpractice.
•   Although, the procedures used by DES to allocate Risk Management costs to programs for
    the three-year period from July 2000 through June 2003 resulted in $130,400 charged to
    SSA programs, DES estimates that SSA programs would have been charged approximately
    $36,000 in each of those years if the ADOA-recommended procedures effective beginning
    FY 2005 had been used to allocate the Risk Management premium at that time.
Although DES would estimate the amount overcharged to SSA programs during the audit period
to be less than $130,400, the department will comply with SSA’s decision and instructions
regarding what amount should be repaid to its programs as a result of Risk Management
premium charges to DDSA.

Corrective action planned to ensure that the Risk Management premium billed to the
department is allocated to programs on an equitable basis.

•   Effective FY 2005, DES will utilize the basis for cost determination recommended by ADOA
    to allocate the various lines within the billed Risk Management premium to its programs.
•   Effective FY 2005, none of the Risk Management premium will be charged to the indirect
    cost pool, and all line items that comprise the total Risk Management premium, including
    medical malpractice, will be allocated as described in Attachment A, with only identified or
    defined losses to be used in the basis for cost determination calculations.

In response to the auditors' recommendation that DES revise its cost allocation plan to require
all programs that benefit from expenditures in the departmental and State-wide indirect cost
pools receive an appropriate allocation of indirect costs:

DES concurs with the auditors' finding.

Corrective action planned–DES will prepare an amendment to its CAP to require the
expenditures in the five DDD costs pools identified in the audit finding that are currently
excluded from cost allocation to receive an appropriate allocation of indirect costs. The CAP
revision, along with a cost impact statement, will be prepared and forwarded to U.S. HHS, DCA
for approval.



Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)     D-7
                                    ATTACHMENT A
                          Risk Management Revised Methodology

Effective FY 2005, DES will utilize the following basis for cost determination
recommended by ADOA to allocate the various lines within the billed Risk Management
premium to its programs,


Vehicles–Auto Liability and Auto Physical Damage
Vehicle count % per organization (orgn) *
+ Personal vehicle use for company business mileage % per orgn
+ Defined claims % per orgn


General Liability
FTE count % per orgn
+ Defined claims % per orgn


Medical Malpractice
Professional Personnel count % per orgn
+ Defined claims % per orgn


Environmental Liability/Environmental Property
+ Defined claims % per orgn (Environmental sites)


Buildings and Contents
DES owned buildings occupancy % per orgn
+ Real property (Fixed assets over $5,000) % per orgn
+ Defined claims % per orgn


* Expenditures are classified by an organization (orgn) accounting code, which
designates the benefiting program.




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)   D-8
                                                ATTACHMENT B
                                Total Risk Management Costs Worksheet FY 2004
      ORGN          Auto Cost   Gen Liab Cost       Med Malpractice Environ Cost       Bldg/Prop Costs            Total Costs

         1100   $        414    $      13,935   $                -   $             -   $              739     $          15,088
         1200   $     13,192    $      41,091   $              124   $             -   $            9,840     $          64,247
         1400   $      9,503    $      44,664   $                -   $             -   $           20,736     $          74,903
         1500   $         91    $         536   $                -   $             -   $               36     $             663
         1600   $        114    $         893   $                -   $             -   $               43     $           1,050
         1700   $     16,092    $      48,952   $                -   $             -   $            5,350     $          70,394
         1800   $         86    $       1,251   $                -   $             -   $              128     $           1,465
         1900   $        490    $       4,645   $                -   $             -   $              110     $           5,245
Total 1000      $     39,982    $     155,966   $              124   $             -   $           36,983     $         233,055

         2000   $    73,346     $     844,684   $           78,781   $          -      $           22,208     $       1,019,019
         2100   $    26,163     $      70,212   $           16,606   $          -      $           11,739     $         124,720
         2200   $    15,174     $      39,840   $           11,195   $          -      $            8,875     $          75,084
         2300   $     3,894     $      12,327   $            1,706   $          -      $              531     $          18,458
         2400   $     1,966     $       7,146   $            1,582   $          -      $               86     $          10,780
         2500   $     4,954     $       8,933   $            2,109   $          -      $            5,314     $          21,310
         2600   $     3,160     $       6,432   $                -   $          -      $              745     $          10,337
         2700   $     6,111     $      17,330   $              264   $          -      $            1,277     $          24,982
         2800   $    18,142     $      17,330   $           10,280   $     29,414      $            8,844     $          84,010
         2900   $       709     $           -   $                -   $          -      $               12     $             721
Total 2000      $   153,618     $   1,024,233   $          122,521   $     29,414      $           59,631     $       1,389,421

        3100 $         2,367    $       1,072   $                -   $             -   $           13,944     $          17,383
        3200 $        43,496    $     439,850   $                -   $             -   $           24,016     $         507,362
        3500 $           876    $       8,040   $                -   $             -   $              458     $           9,374
DDSA 3600       $       272     $      34,123   $             264    $             -   $            1,258     $         35,917
Total 3000      $     47,011    $     483,085   $              264   $             -   $           39,676     $         570,036

         4100   $     2,387     $     300,320   $                -   $             -   $               31     $         302,738
         4200   $       195     $       9,290   $                -   $             -   $            1,124     $          10,609
         4300   $   163,753     $   1,005,831   $                -   $             -   $           13,589     $       1,183,199
         4400   $        80     $       6,610   $              527   $             -   $              232     $           7,449
         4500   $     1,588     $       3,752   $                -   $             -   $              122     $           5,462
         4600   $     3,829     $      10,541   $                -   $             -   $              446     $          14,816
         4700   $        50     $       1,608   $                -   $             -   $                -     $           1,658
         4800   $        51     $         357   $                -   $             -   $                -     $             408
         4900   $       729     $           -   $                -   $             -   $               67     $             796
Total 4000      $   172,662     $   1,338,309   $              527   $             -   $           15,611     $       1,527,135

         5100   $         75    $       1,787   $                -   $             -   $               73     $           1,935
         5200   $     24,974    $     127,024   $                -   $             -   $           14,940     $         166,938
         5300   $     26,004    $      85,576   $           31,615   $             -   $            3,891     $         147,086
         5400   $      5,469    $      28,585   $                -   $             -   $            1,619     $          35,673
         5500   $          -    $         179   $                -   $             -   $                -     $             179
         5700   $      2,224    $       3,573   $                -   $             -   $            3,396     $           9,193
         5900   $      8,034    $      35,552   $                -   $             -   $            1,765     $          45,351
Total 5000      $     66,779    $     282,276   $           31,615   $             -   $           25,683     $         406,355

         6100   $          2    $       1,251   $                -   $             -   $               79     $           1,332
         6200   $     10,623    $      19,295   $                -   $             -   $            1,075     $          30,993
         6300   $        245    $       5,717   $                -   $             -   $              299     $           6,261
Total 6000      $     10,870    $      26,262   $                -   $             -   $            1,454     $          38,586

         7000   $          -    $     132,384   $                -   $             -   $                -     $         132,384
         7100   $          -    $       2,144   $                -   $             -   $              263     $           2,407
         7200   $      2,387    $      30,907   $                -   $             -   $              104     $          33,398
         7300   $        646    $      61,636   $                -   $             -   $            1,649     $          63,931
         7400   $          2    $       7,325   $                -   $             -   $                6     $           7,333
         7500   $          8    $       5,896   $                -   $             -   $            1,258     $           7,162
         7600   $      2,814    $      19,831   $                -   $             -   $              666     $          23,311
         7700   $          5    $       1,965   $                -   $             -   $              140     $           2,110
         7900   $          -    $           -   $                -   $             -   $               18     $              18
Total 7000      $      5,861    $     262,688   $                -   $             -   $            4,104     $         272,054

         8100 $           73    $         893   $                -   $             -   $                 92   $           1,058
Total 8000    $           73    $         893   $                -   $             -   $                 92   $           1,058

Grand Total     $   496,856     $   3,573,113            $155,051 $        29,414 $            183,235               $4,437,700
                                                Note: Rounding adjustment put in orgn 4300-$26.00

  Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)                                D-9
                                      ATTACHMENT C
                           Risk Management Cost – FY 2004 Actuals


In July 2003, ADOA revised its procedures for billing self-insurance premiums to include
the supplemental insurance and administrative cost portions of the premium within the
various lines of insurance provided by the State. Included below is a summary of the
allocation to DES programs of the FY 2004 Risk Management premium billed by ADOA.



                       FY 2004 RISK MANAGEMENT DIVISION ALLOCATION
                                  BY REPORTING CATEGORY

                                        Annual                     Monthly                   Annual
RPTG     Description                    Premium        Month 3      (4-10)    Month 11       Premium
J814/5   DCSE ADMIN                          45,780       11,445      3,815       7,630         45,780
 P100    Z POOL                             653,994      163,500     54,500     108,995        653,995
 P200    DDD/LTC POOL                       708,584      177,147     59,049     118,095        708,585
 P30T    DBME Y POOL - ORGS 1000             29,577        7,395      2,465       4,927         29,577
 P40T    DCYF Y POOL - ORGS 1000          2,958,956      739,740    246,580     493,157      2,958,957
 P50T    DERS Y POOL - ORGS 1000             34,272        8,568      2,856       5,712         34,272
 P60T    DACS Y POOL - ORGS 1000              6,537        1,635        545       1,087          6,537
               TOTAL                      4,437,700    1,109,430    369,810     739,603      4,437,703




             RISK MANAGEMENT AMOUNT ALLOCATED TO DDSA IN FY 2004

Based on the allocations in the table above, below is the calculation of the total amount of the
Risk Management premium that was allocated to DDSA in FY 2004.



                                           Total Annual
                                            Premium          % of Total
                                            Allocated       Allocated to      Total Allocated to
RPTG     Description                         in FY 04          DDSA            DDSA in FY04
P100     Z Pool                              $653,994            2.74%             $17,919
P30T     DBME Y Pool ORGS – 1000              29,577             9.83%               2,907
Total    Allocated to DDSA in FY 2004                                              $20,826




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)            D-10
                                ATTACHMENT D
                              RISK MANAGEMENT
            DES ESTIMATE OF TOTAL AMOUNT OVERALLOCATED TO DDSA
                      FROM JULY 2000 THROUGH JUNE 2004


Effective FY 2005, DES will utilize the basis for cost determination recommended by
ADOA to allocate the various lines within the billed Risk Management premium to its
programs illustrated in Attachment A and Attachment B.        If DES had used this
methodology to allocate the FY 2004 Risk Management premium, as illustrated in
Attachment B, the total amount of the Risk Management premium allocated to DDSA
would have been $35,917.


                                             RECAP


Risk Management charged to DDSA from July 2000 through June 2003                     130,400

DES estimate using revised procedures effective FY 2005 that would have been
 charged to DDSA for Risk Management benefits based on $35,917                       107,751
  in Attachment B

DES estimate of amount overallocated to DDSA from July 2000 through June 2003         22,649

DES estimate using revised procedures effective FY 2005 that would have been
 charged to DDSA for Risk Management benefits in FY 2004 (See Attachment B)           35,917

Actual amount charged to DDSA in FY 2004 of the total Risk Management
 premium billed to DES (See Attachment C)                                             20,826

DES estimate of amount underallocated to DDSA                                         15,091

  Total estimated amount overallocated to SSA programs
  from July 2000 through June 2004                                                        7,558




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)           D-11
                                                                            Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments
In addition to those named above:

   James A. Sippel, Senior Auditor

   Manfei Lau, Auditor

   Brennan Kraje, Statistician

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 966-1375. Refer to Common Identification Number
A-09-04-14010.




Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit

OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations

OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General

OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations

OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
